HHS/OIG, Audit -"Review of TrailBlazer Health Enterprises' Outlier Payments to Foundation
Behavioral Health Center for Partial Hospitalization Services for the Period August 1, 2000, Through
December 31, 2003,"(A-07-04-04035)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of TrailBlazer Health Enterprises' Outlier Payments to Foundation Behavioral Health
Center for Partial Hospitalization Services for the Period August 1, 2000, Through December 31, 2003," (A-07-04-04035)
April 26, 2005
Complete
Text of Report is available in PDF format (623 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the fiscal intermediary, TrailBlazer, calculated Medicare outlier
payments to Foundation in accordance with Medicare reimbursement requirements.  TrailBlazer did
not calculate Medicare outlier payments to Foundation in accordance with Medicare reimbursement requirements,
using an incorrect cost-to-charge ratio in computing the outlier payments.  As a result, TrailBlazer
overpaid Foundation approximately $1.4 million.  We recommended that TrailBlazer (1) recover from
Foundation the improper outlier payments and (2) implement internal controls that ensure the correct
cost-to-charge ratios are used for future outlier payments.  TrailBlazer agreed that an error
was made in determining the cost-to-charge ratio used to compute outlier payments, but disagreed with
the cost-to-charge ratio we used to compute the overpayment.  TrailBlazer also agreed that adequate
internal controls were not in place to identify and correct the error in determining the cost-to-charge
ratio for this provider.